HHS/OIG-Audit--"The Health Care Financing Administration's Implementation of the Federal Managers' Financial Integrity Act for Fiscal Year 1993, (A-14-93-03026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"The Health Care Financing Administration's Implementation of the Federal
Managers' Financial Integrity Act for Fiscal Year 1993," (A-14-93-03026)
June 30, 1994
Complete Text of Report is available in PDF format
(2.51 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out the results of our review of the Health
Care Financing Administration's (HCFA) implementation of the Federal Managers'
Financial Integrity Act (FMFIA) for Fiscal Year 1993. We found that the HCFA
continues to make progress in improving the FMFIA process and establishing effective
controls. However, improvements are needed. We recommended that HCFA modify
its plan that covers the Medicare contractors' management controls and financial
management systems to ensure that it has adequate coverage of the contractors
under the FMFIA. We also recommended that HCFA review the functions of the Office
of the Actuary, reclassify all management control areas with pending material
weaknesses of Office of Management and Budget high-risk designation as a high
risk, expand financial management system reviews, reestablish the cost allocation
system material weakness until all components have properly implemented the
system, perform corrective action reviews on all corrected material weaknesses,
and reevaluate the corrective action plan for the Medicare secondary payer high-risk
area.